             ENSURING APPROPRIATE USE
              OF LABORATORY SERVICES
                       A MONOGRAPH




            t"VICES'
     -r S




'0


     Iy
     -l1i"d30


OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPEC'f
                                     OCTOBER 1990
          ENSURING APPROPRIATE USE
           OF LABORATORY SERVICES
                     A MONOGRAPH




          t'-V'CES
     -r




'0


     Iy
     -l1t"d30


OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPEC'f-INS
                                        OCTOBER 1990
       ENSURING APPROPRIATE USE
        OF LABORATORY SERVICES
                    A MONOGRAPH




                    Richard P. Kusserow
                    INSPECTOR GENERAL




OEI- 05-89- 89150                         OCTOBER 1990
                                EXECUTIVE SUMMARY


PURPOSE

This report examines forces that affect the use of diagnostic clinical laboratory services and
explores alternative payment approaches.


BACKGROUND

Until recently, most Medicare legislation involving clinical laboratory services has focused on
controllng the amount the program pays for services. Passage of the Omnibus Reconcilation
Act of 1989 has focused attention on controlling utization. It is in the context of this change
in focus that this inspection examines the forces that encourage utilization of labo.tory
services and considers varous solutions to control laboratory test use.


METHODOLOGY

We compiled information and data regardig clinical laboratory services from joural       arcles,
previous government and private sector studies, Congressional testimony and from HCFA'
Par B Medicare Annual Data (BMAD) fies. We also obtained information on payment
policies and utilization review procedures from 21 radomly selected Medicare carers.
Seven national associations, representing the medical and laboratory communities, also
provided their perspectives. Additional information was obtained from the working files of
previously published Offce of Inspector General studies of physician offce laboratories
(POLs) and physician financial arangements.


 FINDINGS

 The Use Of Clinical Laboratory Tests Is Rising.

       Between 1984 and 1988, Medicare Par B payments for laboratory services have more
       than doubled.

       The volume of clinical laboratory services has increased disproportionate to the increase
       in the beneficiar population , from approximately 116 milion services in 1985 to nearly
        148 milion services in 1988.

       Testing accounts for nearly 25 percent of the line items paid by carers.
Many Factors Influence Use Of Laboratory Tests.€

     Physician ordering decisions are affected by the patient s condition and other factors€
     such as fear of malpractice.€

     Medicare s fee- for-service system financially rewards increased use.€

     Researchers and our respondents confirm that many factors encourage use.€


The Sheer Volume And Small Dollar Value Of Laboratory Services Render The Current
Pre And Post Payment Review Systems Ineffective.

     Fragmentation upcoding, test groupings and other biling    idiosyncracies hinder accurate


     claim review and cause erroneous payments.€

      The medical necessity of laboratory services is difficult to determne because no

      consensus exists on the appropriateness and intensity of laboratory services for a given€
      medical condition or complaint.



Current Initiatives Do Not Fully Address Laboratory Use.€

      Direct billng initiatives and other restrctions on who can bil for laboratory services do
      not alter incentives that encourage use.

      Reinstatement of the deductible and coinsurance for laboratory services may reduce€
      Medicare laboratory payments. However, by itself, its effects on utilization are€
      uncenain.€

      Initiatives which would prevent physician ownership of any laboratory may adversely€
      affect access to services.€

      Competitive bidding initiatives focus on cost but raise questions on quality of services€
      and may not control use.€

      Practice guidelines may improve medical necessity determinations but wil     not   alter the€
      other problems inherent in the fee- for-service system.€

       V olume performance standards may lower costs, but they may not affect individual
       treatment decisions.
Rollng Laoratry     Reimbursement Into Offce Visit       Payments Is A Promising Strategy For
Curbing Over Use.


     Laboratory roll ins would consolidate Medcare reimburement for individual laboratory
     tests into the recognize   charge   for physician offce visits.

     Laboratory roll ins would provide physicians with incentives to ensur appropriate use
     of clinical laboratory services and lower Medcar s adnistrative costs.



CONCLUSION

The LRI has the potential to alter the forces inherent in the curnt FFS system which
encourage and reward excessive use of laboratory servces. At the same time, it recognizes
the physician s authority in determning which tests ar medcally necessar, does not unjustly
penalize patients for deisions out of their contrl and leaves the maketplace and its dynamcs
unrestrned.

The major featurs of this mechanism would:

      be relatively easy to implement;

      provide appropriate incentives which allow for predictable, controlled growth of
      Medicar laboratory expenditurs;

      reduce the number of claims line items proessed by carers by 25 percent;

      reuce the paperwork buren for bilers and        carers; and,


      use deductibles and coinsurance where they can be most effective in affecting overall
      utilization of health car.

Implementation of the LRI would result in significant savings from increased coinsurance and
lower adistrative costs. We wil shortly issue a repon which furer explores the financial
implications of these features of the LRI reimbursement mechanism.
                                           .. .. ... ... ... ... ... ... ... ...............
                      . . .. .. .. ... ... .                                                                                              . . . . ................................................................................................
                                                                                                                                                                                                                 ....
                                                                                                              ....................................................................................................
                                                                                           ....................                                                                                                     .........     ..................................................".
                                                                                                                                                                                                                               ....
                                                                                                                                                                                                                            ....                                                   ............
                                                                                                                                                                                                                                                                                   .          .............
                                                                                                                                                                                                                                                                                                          . ..
                                                                                                                                                                                                                                                                                                             .....
                                                                                                                                                                                                                                                                                                             .
                                                                                                                                                                                                                                                                                                             ..
                                                                                                                                                                                                                                                                                                             .. ..
                                                                                                                                                                                                                                                                                                                ..
                                                                                                                                                                                                                                                                                                                 ..
                                                                                                                                                                                                                                                                                                                 ..
                                                                                                                                                                                                                                                                                                                  .




                                                                                      TABLE OF CONTENTS€
EXECUTIVE SUMMARY

INTRODUCTION. €




         PURPOSE. €

         BACKGROUND€
         SCOPE€
         METHODOLOGY. €




FINDINGS. €




         The use of clinical laboratory tests Is rising

         Many factors influence use of laboratory tests. ....................... 4€
                      Influences on physician ordering decisions€
                      Market In fluences €
                                                                                                ........................................... 5€
                      Medicare s fee-for-service system.
                      Research, studies and expert opinions.

         The sheer volume and small dollar value of laboratory
         services renders the current pre and post payment review
         systems ineffective. €
                                                                                  .............................................. 7€
                      Fragmentation, upcoding, test groupings and other
                      billing Idiosyncracies
                      Medical necessity€
                      Carrier revieJ1 €
                                                                                       ............................................. 9€


          Current Initiatives do not fully address laboratory use. . .
                      Direct billing and other restrictions on who can bil                                                                                                                                                       ................ 10
                      Deductible and coinsurance
                      Preventing physician ownership of laboratories. €
                      Competitive bidding. €

                      Practice guidelines€
                       Volume Performance Standards€


          Rollng laboratory reimbursement Into office visit€
          payments is a promising strategy for curbing over use€
                      Strengths of approach. €

                       Incentives to control use.
                       Lower administrative costs.
                       Issues for further exploration

              CONCLUSION€
             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..




EN   NOTES

APPENDIX A: Legislative History and Its Effects on                             laboratories
      ' ,,€

                                      INTRODUCTION

PURPOSE

This report examines forces that affect the use of diagnostic clinical laboratory services and
explores alternative payment approaches.

BACKGROUND

By the end of 1986, Medicare and its beneficiares were paying 45 percent more for Par B
                                     1 Despite a freeze on physician payments, adoption of
services than they had 3 years before.
fee schedules, reductions in payments for certin services and other measures which should
have controlled the growth of Par B expenditures, Medicare expenditures continue to grow.
From 1975 to 1987 the rate of increase in Medicare payments per beneficiar for physician
services was ... almost twice the compound annual rate of growth in the per capita gross
national product and almost four times as much as the increase in Federa domestic
spen mg....

A substantial portion of the growth in Medicare Par B expenditures is attrbuted to services
ordered by physicians. In the period between 1985 and 1989, physician initiated services
grew at a faster rate than overall Par B expenditures. Increases in volume and intensity of
services accounted for roughly half of the increase in Medicare payments to. physicians.
Volume increases reflect both increases in use and the fragmented biling of services that were
                                       4 Nowhere has increased use and fragmentation of
formerly bundled and biled together.
services been more apparent than in the area of clinical laboratory services. Payments for
laboratory services more than doubled between 1985 and 1989.

Both indigenous and exogenous influences have exacerbated the growth of clinical laboratory
services. The exogenous factors most often cited include technological advances, spread of
health insurance, oversupply of physicians, aging of the population , and malpractice liability,
as well as the implementation of the Prospective Payment System (PPS) for Medicare hospital
inpatient services. Many aricles have been wrtten about how these exogenous factors have
influenced the growth of Par B services including laboratory services. This repon wil only
look at the indigenous causes and market forces unique to the laboratory environment. Only
these indigenous causes can explain the inordinate growth which has occurred in the use of
laboratory services.

Over the years, the Health Care Financing Administration (HCFA) made several attempts to
control the growth of Medicare Part B expenditures for clinical laboratory services. The
HCFA' s approach relied primarly on voluntar disclosure of the actu al charge incurred in
securing laboratory work, on carer scrutiny of laboratory claims, and on capping the amount
paid per laboratory test. With the passage of the Omnibus Budget Reconciliation Act of 1989
(OBRA 1989), attention has now focused on controllng utilzation. It includes the relative
value scale (RVS) for physician payment; Medicare volume performance standards;
effectiveness and outcomes research to develop practice guidelines; prohibition of physician
referrals to most laboratories in which they have ownership; and, restrctions on referrals
among different clinical laboratories. It is in the context of these recent changes that this
report examines factors that encourage utilzation of laboratory services, and considers varous
solutions to control utilization.

SCOPE

This study looks at varous forces which affect the use of laboratory services. It also examnes
the ability of the Medicare progr to effectively enforce policies relating to these services
and the environment in which they ar secured. It does not include Medicare data on services
provided to registered hospital outpatients, hospita inpatients and enrollees of health
maintenance organizations. The report involves only non- hospita diagnostic clinical
laboratory services.

METHODOLOGY

We compiled information and data regarding clinical laboratory services from journal aricles,
previous government and private sector studies, Congrssional testiony and from HCFA'
Par B Medicare Annual Data (BMAD) fies. We also obtained information on payment
policies and utilization review procedures from 21 randomly selected Medicar carers.
Seven national associations, representing the medical and laboratory communities, also
provided their perspectives. Additional information was obtaned from the working files of
previously published Offce of Inspector General studies of physician offce laboratories
(POLs) and physician financial arngements.
                                                             "'"     ".............'".......,.........',..€
                                 ....... ...... ........-.....,..........              ..........
                                                                          ...................................€




                                                    FINDINGS€

FINDING 1: The Use Of               Clinical Laboratory Tests Is Rising.€

Of the 19 bilion diagnostic tests performed each year on Americans, a large ponion are€
c1inicallaboratory services. In 1982, laboratory testing accounted for $11 bilion in annual€
                   6 By the end of 1986, the amount of money spent on laboratory testing had€
medical car costs.
grown to $20 billon. Current estimates place the yearly laboratory market at€
$30 bilion.€

Medicare annual expenditures for laboratory services parallels the growth in laboratory€
expenditures experienced by the nation as a whole. Medicar expenditures for Par B€
laboratory services have continued to escalate despite adoption of a fee schedule method of€
reimbursement and reductions in test payment amounts. Between 1984 and 1988, Medicare
Par B payments for laboratory services (excluding hospital outpatient laboratory services)
have more than doubled. In 1983, payments totaled approximately $800 millon. By 1988,€
payments had risen to approximately $1.9 billon and are expected to exceed $2. 5 bilion in€
1990. This growth in Medicare expenditures for laboratory services is not accounted for by€
increased Par B enrollment or by inflation, but is due to an increase in the volume of€
laboratory services and biling idiosyncracies inherent in the curnt fee- for-service (FS)€
system.€

                                                               FIGURE 1€
                   Growth In Laboratory Expenditures Despite Reductions In Payment€
                                                                                                                              90 Billon




            What Medicare Actually Paid
                                                                      30 Bilion
           .....,......,.........".,'" .1,14, BiHion'.""




                                                                                                   744 Milion€

   a: €                                                                                                                      698 Million€




                                                , , , , . . . . Wh' Medicare 'Expecied to ' Pay' . . . . . . . . . . . ' . . . . . . . . .
                                                                 (Based on Fee Scedule Reducions)€


           198               1984                1985                        198                         1987                        198€



Figure 1 ilustrates the escalation that has occurrd in Medicare expenditurs for clinical€
laboratory services from 1983 through 1988. The bottom line represents projected annual€
expenditure levels resulting from adoption of fee schedules and subsequent increases and€
reductions in payment levels. The bottom line has been adjusted to reflect the growth in the
beneficiar population. The top line, in Figure 1, shows what Medicare has actually paid for
clinical laboratory services since adoption of the fee schedules in 1984. The grph clearly
demonstrates that adoption of the fee schedule did not reduce Medicare expenditurs for
laboratory services or slow the rate of growth.

In addition to the growth in expenditures, the volume of laboratory services paid by the
Medicare progr has also increased disproportonate to the increase in the beneficiar
population, from approximately 116 millon services to nearly 155 millon services between
1985 and 1988. This growth in the volume of laboratory services is consistent with the
effects predicted in a 1982 study conducted for HCFA. That study concluded that reductions
in payment levels are often offset by increased volume.


FINDING 2: Many Factors Influence Use Of Laboratory Service

Physician ordering decisions are affected by the patent' s condition and other factors.

Once a patient decides to seek medical care, subsequent decisions about medical services are
almost entirely in the hands of the physician. The kinds and intensity of services that the
patient receives are usually out of the patient s contro1.

Medicare and other insurers reinforce the control of the physician in procuring clinical
laboratory services by paying only for tests which ar ordered by a physician and which the
                                                      l0 Medicar and most
physician has determined are medically necessar.                             other insurers wil
not pay for patient initiated tests, routine testig and tests which are not medically indicated.

There are many reasons which explain why physicians order laboratory tests when carng for
their patients. Expens, who have studied physician behavior, repon that the most common
reasons to explain why physicians order laboratory tests are: to reduce uncertainty in their
                                        l1 to search for as mptomatic disease, to monitor
diagnosis and management of a patient,
chronic conditions and to valdate previous test findings.     Other reasons include physician
need to be complete, lack of experience, poor test inte   retation , routine screening, ordering
packaged clusters of tests and fear of malpractice suits. 3

One study suggests that individual physician test-ordering behavior often becomes routinized
. over time. 14 This individual behavior has hindered the development of a consensus, among
                                                                                 15 This lack
physicians and professional associations, over acceptable test ordering protocols.
of consensus in test ordering behavior has been observed by researchers, who compared 16,    use17

                                                                                                 of
laboratory services in different practice settings and under different financial incentives.
Other researchers have focused on the varability of tests ordered
 the absence of correlation with improved patient outcome. 18,19,
                                                                        22,
                                                                     for a s ecific diagnosis and
                                                                   20,21,
                                                                ...




The market impinges on ordering decisions in ways that encourage increased use of tests.€

The market for laboratory services can be characterized by intense competition for a finite€
number of patients. Laboratories need a certain minimum volume of tests to succeed€
financially. To achieve this minimum test volume, a laboratory needs a predictable volume of€
patient referrals. Because referrs ar a function of tests ordered by physicians, laboratories€
tr to find ways to ensure that physicians wil refer patients and test specimens to their
laboratory and not another.

This competitive market impinges on two aspects of the test ordering decision: where to have€
the test run , and how much testing to order. Both aspects are afected by those who stand to
profit from the test ordering decision , which can include the physician ordering the test as well
as the laboratory that runs the test.€

In vying for referrals, laboratories may offer volume discounts and customized packages of
tests to gain a competitive edge. Discounts are based upon expected volume of referrls and
other cost and competitive factors presented by each client. They often may have little or no
relationship to the actual cost incurred in performng a test. " (A) laboratory may grant a
                                                                             also order enough
discount on one or more tests to a client if it believes that the client wil24 Such discounts are€
higher margin tests to make an overall account suffciently profitable.€
possible because the discount price of a laboratory test is often significantly different from the
amount paid by Medicar and other third pary insurers. On the average, Medicare
reimbursement rates ar nearly tWice as much as the discount amount paid by physicians and
other laboratories for tests. When groups of tests are purchased, Medicar pays even more.

A laboratory wil also offer customized test packages as a way of attrcting patient referrals by
giving the test orderer " personalized" service, tailored to the needs of that physician s practice.
These customized groupings of tests are often sold to wholesale clients (physicians, hospitals
and other laboratories) at considerable discount. Many wholesale clients subsequently bil
their patients and insurers, such as Medicare, for more money than they actually paid. A 1988
survey found that the average mark-up on purchased laboratory work was 139 percent. The
same survey found that sixteen percent of the surveyed physicians charged patients and
insurers more than three times the price charged to them by the laboratories that actually
conducted the tests.

In addition to discounts, business practices which streamline day- to- day operations, facilitate
rapid turn around time, enable better service and provide convenience to the patient are often
used to gain a competitive edge. It is not uncommon for physicians and laboratories to share
telephones, computer hardware and software, laboratOry    andbusinesses,
                                                              other medical               offce€
                                               27 Like other              the equipment,
                                                                              sellers and
supplies, management services and personnel.
purchasers of laboratory services, engage in activities designed to promote goodwill. Under
existing Medicare law, these business practices may be considered inducements for patient
referrals, and therefore constred as ilegal.
The market competition for test volume and patient referrals is furer complicated if the test€
orderer stands to profit from where the test is performed. Havin
                                                             28.2
                                                                f In
                                                                   ownership
                                                                              interest in a€

laboratory can signifcantly increase a physician s revenues.          response to this potential
new source of revenue, many physicians have established laboratories in their offces or
expanded their existing POL testing capabilities. Others, practicing independently of one
another, have pooled their resources to establish joint ventur or collaborative laboratories.
In some aras of the countr, independent and hospita laboratories have entered into joint
ventures with physicians to retain their market shar. Having physicians as parers not only
makes joint ventures competitive but also increases their laboratory profitabilty by assuring a
suffcient patient base.€


Having a financial interest in a laboratory which performs tests can afect a physician€
decision to order tests. A recent Office of Inspector General report to Congress established
that at least 25 percent of the nearly 4500 independent clinical laboratories (lCLs) are owned€
in whole or in par by referrng physicians. The same report found that Medicare " (p)atients
of referrng physicians who own or invest in ICLs received 45 percent more clinical€
laboratory services than al Medicar patients.... (And) 34 percent more services from€
                                                                 31 Laboratory owners and€
independent clinical laboratories than all Medicar patients....
parcipants in laboratory joint business ventures are aware that the financial success of their
laboratory depends on the number of patients referrd by parers in the laboratory.

Medicare s FFS reimbursement system financially rewards increased use of laboratory tests.€

Under the FFS system, increased use of medical services is rewarded. The FFS€
reimbursement system pays for medically necessar services provided to a Medicare€
beneficiar. Services are provided by physicians and others who then submit bils itemizing€
the services they have provided to Medicare s fiscal agents for payment. This means that the€
more services are ordered, rendered and biled, the more Medicare pays to the biler. This€
reward system intensifies competition for the finite pool of referrs needed to succeed€
financially.€

For nearly 2 decades, HCFA has sought to reduce Medicare expenditus for clinical
laboratOry services by bringing Medicare reimbursement more in line with the wholesale
prices offered to physicians and other laboratories. The original approach to resolve the
discrepancy between payment levels and wholesale prices relied on voluntar disclosure of
the actual charge incurred in securing laboratory work and on carer scrtiny of laboratory
claims. When volunta efforts proved ineffective, a series of laws (listed in appendi A)
were enacted to reduce expenditures by controlling the amount Medicare p d for laboratory€
services. These attempts to control payment resulted in volume increases which not only
offset anticipated savings by also resulted in increased expenditures.

Furthermore, in the DEFRA 1984 legislation HCFA eliminated the beneficiar        deductible and

coinsurance with regard to laboratory services, softening its attempts to curb laboratory
expenditures by reducing the financial burden on the beneficiares.    This resulted in Medicare
picking up additional costs that were once the responsibility of the beneficiar.   Reinstatement
of deductibles and coinsurance for laboratory services is being considered. Funher discussion
about coinsurance for laboratOry services are included in finding 4.€

Researchers and our respondents confinn that many factors influence the increased use of€
laboratory tests.€

Articles from newspapers and academic/professional journals and government reports have€
also examined the overuse of laboratory services. Recently published findings of the Blue€
Cross and Blue Shield Association and the American College of Ph" sicians    suggest that€
                                                                       2 Many researchers who
 20- 60 percent (of clinical laboratory testing) may be unnecessar.
have studied physician use of laboratory services have noted overutilization of laboratory
services as par of an overall increase in physician services. Others have analyzed the problem
of excessive test ordering by looking at the incentives inherent in the medical and payment
               34, 35,36, 37 , 38,
systems. 33,

In our discussions with carers, 14 of 21 felt that physicians ordered too many tests, although
they disagreed over the extent of the problem. The laboratory and medical associations we
contacted acknowledged that the use of laboratory services has increased and that some of this
increase might be attrbutable to routine screening of patients. They felt that laboratory tests
are relatively inexpensive compared to other alternatives for diagnosing a patient s medical
status. They strenuously objected, however, to studies which indicated that much of the
laboratory work being ordered was medically unnecessar or. excessive.

According to the people we interviewed and joural anicles in this area, a varety
exogenous factors influence the growth in laboratory services, including the aging of the
population, the oversupply of doctors , the presence of health insurance and other factOrs. A
more specific factor cited was increasing physician dependence    on "inobjective " measures,€
                                                         40 Growth       testing also suggests€
rather than professional judgment , in making diagnoses.
increased documentation of the diagnostic/treatment process as a par of " defensive
medicine. " Of the objective measures or documentation sought by physicians, low-cost,
readily avaiable items such as laboratory services contrbute a grater share of health care
costs than expensive items like magnetic resonance imaging, CAT scans, etc.


FINDING 3: The Sheer Volume And Small Dollar Value Of Laboratory Services
                     Render The Current Pre And Post Payment Review Systems
                     Ineffective.€

The sheer volume of laboratory services and the diversity of bilers present logistical problems
for carer monitoring efforts. In 1988 carers paid for nearly 148 millon laboratory services
at an average payment of $12.46 per service. All 21 carers felt that increasing their efforts to
police laboratory services would increase their administrative cost disproportionate to any€
savings that might be realized.€
The accuracy of payments made for laboratory services depends to a grat extent on the ability
of Medicare carers to identify suspect services and intervene in their payment. Carers are
authorized to pay only for covered services furished to Medicare beneficiares. The services
must be reasonable and medically necessar, furished in the most appropriate setting and
                                                   42 Carers claim that their efforts to police
biled accurately to reflect the services rendered.
laboratory services do not give them suffcient retur to cover expenses. In 1988, clinical€
laboratory services represented approximately 5 percent of total Medcar Par B expenditurs€
but accounted for nearly 25 percent of the Medicare Par B service volume.€

Fragmentation , upcoding, test groupings and other biling    idosyncracies hinder accurate
claim review and cause erroneous payments.

Carer systems are vulnerable to laboratory claims information which has been manipulated€
to maximize reimbursement. Fragmented biling, customized profies and upcodig or
procedure inflation ar common methods employed to manipulate the FFS system. Although
HCFA and the carers recognize that these vulnerabilties and others exist and have attempted
to safeguard their clais processing systems, we found wide varation in carers
interpretations of the problems and in their abilty to detect and intervene when claims€
information has been manipulated.€

Fragmentation is a common problem carers encounter when reviewing claims for clinical
laboratory services. It is common practice for physicians to order the tests they use most often
in the form of packages which have been customized and talored for their individual needs.€
Medicare would like to see these packages biled and paid the way they were purchased - as a€
single item.

Bilers of laboratory services argue that they ar unable to  bil packages as a single procedure
                                                                            43 Their
code because no single code exists which accurately describes the package.€
assessment is correct. Few Medicare procedure codes exist which accurately describe the€
packages being ordered. This situation exists because the packages being ordered have been€
customized for individual physician needs. It is unlikely that Medicare could ever develop€
enough procedure codes to accurately describe al of these customized packages of laboratory
services.€

When the OIG looked at laboratory procedures, 37 percent of the line items biled to Medicare
were found to have been ordered by physicians as packaged tests defined by Medicar as
profies. 44 Yet, HCFA's BMAD fies do not list a single profie procedur code (codes 80050
through 80099) in the top 60 procedures biled to Medicar from 1985 to 1987. In 1987, only
2 millon laboratory services biled to Medicare were identified as profies. Using data from
this previous study, we project that more than 55 millon laboratory services should have been
biled and paid as profies.€


Another billng practice which results in erroneous laboratory payments is upcoding or€
 procedure inflation.' .45 Upcoding involves biling for a more complex service or procedure€
than was actually performed.
                              46 The Medicare
                                               progr is vulnerable to laboratory service€
upcoding because as many respondents told us, multiple procedure codes exist which define
essentially the same laboratory procedures. As new methods are introduced, more procedure
codes are added often with higher reimbursement rates than the older methods. The number
of biling codes available to describe a test enables physicians and laboratories to select codes
which will result in the highest payment. Upcoding is not easily detected by screens and often
requires in- depth review of records by a trained laboratory technician.

The medical necessity of laboratory services is difficult to determine.

The Medicare carers must deny or adjust payment for claims they determne to be medically
              47 Unlike claims for primar care, carers          diffcult time determning the
unnecessar.                                              have a
medical necessity of laboratory services because no consensus exists concerning the
appropriateness and intensity of laboratory services for a given medical condition or
          48 Individual physician test ordering behavior has continued for so long that carer
complaint.
data analysis no longer provides meaningful insight into acceptable test orderig protocols,
but merely shows the lack of consensus which exists among physicians concerning the
medical necessity of laboratory tests.

Determning medical necessity is funher complicated by the complex claim development
which carers must undertake to arve at many medical necessity decisions. It is not
uncommon for a carer to receive bils for laboratory services from several different
laboratories for a single patient s episode of ilness. For a single episode of patient car a
carer could receive a bil for services from a POL and from one or more ICLs and/or hospital
operated laboratories (HOLs). The cost of ensuring that each individual test provided was
medically necessar and not in excess of the patient s needs is a tremendous burden on the
carers which , given the volume of services, appears unrealistic.

When carers question the medical necessity of laboratory services provided to a patient, they
not only must validate that each laboratory involved performed the work they biled, but also
that the patient s medical record establishes that the laboratory tests performed were medically
necessar. If a laboratory service is determined to be unnecessar, the carer must recover the
payment made. Under the current system, payment is made to the entity (physician or
laboratory) which performed the actual tests. When the carer determines that a laboratory
service was not medically indicated or that the services were in excess of the patient s need,
recovery is made from the biler(s). The ICLs and HOLs argue that they should not be
penalized for following physician orders. They argue that Medicare s recovery of payments
often leaves them without any means to collect payment for work they have performed.

Carrier reviews of laboratory claims are often reversed on appeaL

All of the carers we spoke to expressed a sense of fUtility concerning the effectiveness of
much of the work they have done in policing laboratory claims. Even when they deny claims
                                                                        49 Carers claim that
for payment, an increasing number are appealed, reprocessed and paid.
the reprocessing of claims lost on appeal further increases administrative costs associated with
laboratory services. Some carers feel that had they paid the original claim , the overall cost
to the Medicar program would have been less than the expenses they incurred in developing
a service for denial, preparg for the appeal, and reprocessing cases lost on appeal.

All of the carers with whom we spoke agred that the costs associated with policing
laboratory claims exceed the money that would be recovered or saved if payment was denied.€
At a time when carer budgets are being restraied, it appears unralistic to expect them to€
police and correct the problems associated with laboratory services, especially in an€
environment where entrepreneurs identify vulnerabilties in carer systems and o genly market€
strategies to tae advantage of those vulnerabilties to maximize reimbursement. In the case€
of laboratory services, the cost of policing the industr and the claims it produces is unralistic€
and probably would cost more than the value of the services biled.€

FINDING 4: Current       Initiatives Do Not Fully Address Laboratory Use.

Curent Medicare initiatives to control use would prohibit physician referrs to most
laboratories in which they have ownership, restrct referrals among diferent clinical
laboratories and establish volume performance standards. Other proposals would reinstate€
coinsurance for laboratory services, ban physician ownership of laboratories entily, require€
that laboratory services be procured through competitive bidding or use practice guidelines to€
control use. These approaches may not be adequate because the FFS system which promotes€
increased use remains in effect. Even the competitive bid proposals allow some aspect of the€
FFS system to remain.

Direct biling initiatives and other restrctions on who can bil   for laboratory services do not€

alter incentives that encourage use.€

Direct biling initiatives place restrctions on who can bil Medicar for a clinical laboratory
service. S ce .1984 and the passage of the Deficit Reduction Act (DEFRA 1984), physicians
and laboratories can bil only for work they actually perform. The DEFRA 1984 banned
physicians from biling Medicare for work they purchased from independent and hospital
laboratories. The DEFRA 1984 did not prohibit laboratories from referrng work to other
laboratories and billng for the referred work.

The DEFRA 1984 clearly affected laboratory services. Some physicians responded by
opening their own laboratories or enterig into joint ventues with established ICLs and
HOLs. Some of the new laboratories were merely " shells " and performed little or no actual
testing. Some arangements between ICLslHOLs and physicians circumvented the intent of
the law by simply exchanging regulated Medicare and Medicaid patient testing for
nonregulated private pay patient testing. Some physicians received reduced prices from
ICLs/HOLs on their nonregulated private pay patients if they referrd their regulated
Medicare/Medicaid patients to the ICLIHOL.

The exact number of laboratories, joint ventures and other creative argements established€
in response to DEFRA 1984 is unknown. The number of POLs established following the€
enactment of DEFRA 1984 is unknown, because POLs ar not subject. to regulation until€
1992. The number of physicianlHOL joint ventures is also unknown. The only available data
shows that by 1988 physicians owned, or were involved in joint ventures with nearly 25
percent of the 4500 ICLs certified by Medicare. " Patients of referrg physicians who own or
invest in ICLs received 45 percent more clinical laboratory services than all Medicare
            " 51

pauents....

In 1989, Congress passed OBRA 1989 which placed further restrctions on who can bil for
laboratory services. The OBRA 1989 legislation bans most physicians from referrng their
Medicare patients to laboratories that they own , or in which they have a financial interest.
Laboratories ar no longer permtted to bil for work they have purchased from other
laboratories unless they perform in- house 70 percent or more of the work they bill.

Four major diffculties remain with direct billng initiatives. The utilization review problems
inherent in the FFS system are unchanged. Creative arangements to secure a predictable
volume of patient referrals wil continue to flourish and may even be encouraged as they were
by earlier legislation. Policing these argements wil continue to be diffcult and time
consuming. Finally, basic incentives afecting physician ordering decisions and which result
in increased use of laboratory services wil stil exist.

Reinstatement of the deductible and coinsurance for laboratory services may reduce
Medicare laboratory payments. However, by itself its effects on utilization are uncertain

As mentioned in finding 2 , reinstatement of deductibles and coinsurace for laboratory
services has been proposed. Such a move may reduce the Medicare outlays by shifting a
ponion of expenditures back to the beneficiar. If utilization can be controlled, savings in
Federal outlays could exceed several bilion dollars over a 5- year period.

Deductibles and coinsurance would also place an increased administrative burden on those
billng laboratory services. Additional paperwork and personnel time would be requird for
patient billng and collection. The average laboratory charge is relatively inexpensive (less
than $12. 50 based on 1988 Medicare data), yielding an average coinsurance amount of about
$2. 50. The cost of collecting the coinsurance could conceivably equal or exceed this amount,
but in any case could be considered disproponionately large compared to the amounts to be
collected.

Some believe that giving the beneficiar a greater financial stae in laboratory expenditures
may encourage them to more actively pancipate in test orderig decisions, thus affecting
utilization. Cost sharng may motivate beneficiares to discuss the potential costs and benefits
of cenan laboratory tests with their physicians. On the other hand, it is, the physician, not the
patient or the laboratory, who is most influential on the number and kinds of tests to order.

The effectiveness of deductibles and coinsurance in controllng utilization is most evident in
those aras where the patient has more control over the decision , such as whether to visit the
physician in the first place. We believe there is a strtegy which uses deductibles and
coinsurance where they wil be most effective, in the beneficiar s decision to access the
health care system. It is described in finding 5.

Initiatives which would prevent physician ownership of any laboratory may adversely affect€
access to laboratory services.€

Some laboratorians suggest that Medicar could control escalating laboratory use by banning€
physician ownership of any laboratory. These initiatives would either ban physician€
laboratory ownership entirly or prevent payments for laboratory work performed by€
physicians and businesses with physician ownership interest. To be effective, initiatives€
which prohibit physician ownership would need to extend to all laboratory work and not€
simply apply to tests performed for Medicare and Medcaid patients. Any initiative which
does not apply to all patients would, in al lielihoo, exacerbate argements between ICLs,
HOLs and physicians. The complexities of an almost infinite number of arangements would
make it diffcult, if not impossible, to determne the legalty of each specific arangement.

The only viable solution would be to remove the financial incentive from the physician€
decision. Removing the financial incentive could only be done by prohibiting physician€
ownership and financial interest in any laboratory, including POLs. This initiative could hun€
patient access to laboratory services in rual aras where POLs and physician owned ICLs€
may be the main or only source of services.€

Competitive bidding initiatives focus on cost but raise questions on quality of services and
may not control use.

The HCFA has considered using competitive bid to procur laboratory tests for Medicare
patients. The HCFA competitive bid initiatives stem from the reponed success of competitive
bidding in the State of Nevada.

The State of Nevada established a sole source competitive bid project to secure laboratory€
testing for Medicaid patients in that State. Two laboratories perform all the testing ordered for
Medicaid patients. All other laboratories (ICLs, POLs and HOLs) are foreclosed from€
providing covered laboratory services for Medicaid patients. According to HCFA, the Nevada€
sole source competitive bid project succeeded in reducing the number of laboratory tests€
conducted on Medicaid patients by nearly 50 percent.€

The HCFA competitive bidding initiatives differ considerably from that used by Nevada. The
number of laboratories allowed to perform tests on Medicar patients is not restrcted as
severely as in the Nevada program. Increasing the number of laboratory testing sites greatly
reduces the economies brought about by increased volume. The Medicare models also allow
physicians to get paid for tests they perform in- house. This de facto exemption of POLs puts
roughly half of all Medicar Pan B laboratory services outside the constrnts of the
competitive bid proposals. Any proposal which does not apply to about half of the relevant
services is unlikely to achieve substantial savings for Medicare.
Both the laboratory and physician community expressed concern that cqmpetitive bidding
might compromise laboratory test qualty and har patients. They felt competitive bidding
might encourge laboratories to cut corners and consequently compromise patient care.

Practice guidelines may improve medical necessity determinations but wil not alter the
other problems inherent in the FFS system.

The medical associations with whom we spoke suggested that Medicar controllabora,tory use
by using clinical practice guidelines. They suggest that clinical practice guidelines being
developed be used by Medicare to determne the medical necessity of laboratory services.
Practice guidelines should be developed because they could improve the quality of treatment
provided to patients by reducing physician uncertnty. Used as a baseline, the agred upon
parameters for medical treatment may also help to reduce the risk and costs associated with
malpractice suits against physicians.

Unless practice guidelines are combined with additional safeguards, they wil do little
corrct overuse. We suppon establishing practice guidelines because they wil be useful
identifying under- treatment. However, most guidelines set a floor but not a ceiling, and
consequently, have little or no effect on the incentives in the FFS system which lead to
excessive use of services.

Volume Performance Standards (VPS) may lower costs, but-hey may not affect individual
treatment decisions.

The VPS establish aggregate payment and volume tagets for Medicare Par B physician
services and payments including clinical laboratory services. Future growth in Medicare Par
B payments to physicians wil be related to past expenditures for physician services and to the
volume of physician services provided to patients. If physicians, as a whole, exceed the
targets they would get little or no update in their fees the following year. If physicians meet
the target, they would get a full fee update.

Critics of VPS claim that VPS aggrgate targets do not provide incentives which wil alter
individual physician behavior. Service intensive physicians could continue to increase the
intensity of services they provide, penalizing physicians whose practice of medicine is more
conservative.

The VPS represent an innovative approach to control total costs. The challenge remains to
provide incentives for controllng individual use of services. We believe that a strategy exists
that wil meet this challenge at the level of individual behavior and is compatible with and
supponive of VPS.
FINDING 5: Rollng Laboratory Reimbursement Into Office Visit Payments Is
               A Promising Strategy To Ensure Appropriate Use.

The use of laboratory roll ins (LRIs) appear to be a promising strtegy   for curbing the use of
laboratory services. Under LRIs, reimburement for individual laboratory tests would no
longer be made by the Medicare progr. Clinical laboratory reimbursement would be rolled
into Medicare s recognized charge for physician office visits and trated as an
indistiguishable par of a physician offce visit. Medcar would no longer process any
claims for diagnostic clinical laboratory services (HCPC proedure codes 800 though
89999). Reimburement for laboratory services would be a fixed amount added to the
recognized charge for physician outpatient offce visits (HCPC procedur codes in the 90000
series excluding inpatient services). The new recognizd charge (which includes the LRI) for
physician outpatient offce visits would contiue to be subject to deductible and coinsurance.

To ilustrte  how a LRI might be calculated, we used the 1988 BMA file and redistrbuted
the $1. 84 bilion Medicar allowed for laboratory services across paid physician offce visits
(90000 series procedur codes). This calculation resulted in a base LRI of$13. 50 per offce
visit ($1.84 billion Medicare allowed/1.37 millon offce visits).

To determe the potential impact on physician specialties, we compard the $13. 50 LRI with
each specialty s average reimbursement for laboratory services under the FFS system.
Allowed amounts and service volume for clinical laboratory services biled by pathologists,
osteopathic (DO) pathologists and nonphysician specialties such as ICLs, were distrbuted to
all physician specialties based on the proporton of services each physician specialty ordered
from an outside source. To do this we isolated patients who were seen by a single physician in
1988. This enabled us to obtain a complete picture of al laboratory services a patient
received, no matter who biled. From this initial step we were able to calculate the number of
POL services provided by each specialty to each patient in the sample. We were also able to
calculate the number of services each specialst ordered from an outside source. The same
method was used to determne the dollar value of tests.

The financial impact that a $13. 50 base LRI would have on physicians is shown in the table
on the following page. The last two columns of the table compares the average laboratory
payment for each office visit under the FFS system with a base LRI of $13.50. The last
column in the table indicates whether the physicians in each specialty are likely to paid more
or less than they were under the FFS system.
---------....-------------..-----------------------..----                                                                                ....-..---------




                                                                                   Table 1



                                                      Effect of $13. 50   base     LRI   on Physician Specialties




                                                                                         FF Data
                                            Total      Avg. OV            Totall              Averag        Totall         Average
                                            Office     Per Bene           Lab                 Lab Svcs.     Paid           Lab Paid/OV     +/- 2
Specialties                                 Visits                        Servce              Per Visit     For Lab        Under
01 General Practice                         164397                        171047              1.04          $1, 994 179    $12.13
02 General Surgery                           59213     2.25                44058                                     192   $11.
03 Allergy                                    4873                          1993                                     603   $ 5.
04 ENT                                       30316     1.75                 9109                                156,879    $ 5.
05 Anesthesiology                             1720     2.04                 148                                  17, 574   $10.
06 Cardiovascular Diseae                     68718     2.82                61454                            $ 770 907      $11.22
07 Dermatology                              3109       2.05                19163                            $ 476, 851     $15.
08 Family Practice                          2033692                       2498                1.22          $2,969 973     $14.
09 Gynecology (DO Only)                        158  1.93                     121                                           $10.
10 Gastroenterology                          19166  2.04                   20824              1.09          $ 279, 981     $14.
11 Internal Medicine                        414798                        581949              1.40             927 411     $16.
12 Manipulative Therapy (DO)                  2719                          2775              1.02                  614    $11.
13 Neurology                                 20595                         1020                                143 340     $ 6.
14 Neurological Surgery                       4734  1.61                    1628                                20, 450    $ 432
15 Obstetrics                                                                                                              $ 1.44
16 OB- Gynecology                           15791      1.59                14780                               162,037     $10.
17 EENT (DO only)                             776      1.69                  829              1.07                  011    $12.
18 Ophthalmology                            51108                          19544              0.3              259 173     $ 5.
19 Oral Surgery                               490      1.49                 467                                    965     $1830
20 Orthopedic Surgery                       44331      2.10                1363               031              198, 422    $ 4.
23 Peripheral Vascular (DO)                                                  145                                   162     $ 8.
24 Plastic Surgery                           3185                           2035                                    851    $17.54
25 Physical Medicine                         4545                           1212                                   235     $ 4.
26 Psychiatry                                5171                           5731                                79, 640    $15.40
28 Proctology                                1195      1.6                   696              0.58                 621     $ 7.
29 Pulmonary Disease                        18896                          14146                               194, 073    $10.
30 Radiology                                 5403      1.71                 2810              0.52              39,3       $ 7.
31 Radiology (DO)                             394                           123                                  12,169    $30.
32 Radiation Therapy                          221                            158                                    907    $ 8.
33 Thoracic Surgery                          6529      1.64                 2805              0.43                  938    $ 6.
34 Urology                                  42338                          6380               1.1           $ 618, 795     $14.
36 Nuclear Medicine                           157      1.91                  147                                    422    $28.
37 Pediatrics                                2820                           2926                                 34,838    $12.
38 Geriatrics                                 429                                             1.4                   832    $1360
39 Nephrology                                8042                          10162                                126 568    $15.
40 Hand Surgery                               240      1.95                                                         240    $ 5.
41 Optometry                                 4085      1.40                 2242                                 28,757    $ 7.
48 Podiatry                                 28746                          13134                                173 675    $ 6.
49 Misc. Physician                           1779                           4568              2.57               81,513    $45.
70 Clinic or Group Practice                 91362                         12352               1.36          $1, 706 841    $18.
88 Unknown                                                                                    1.38                         $ 6.
99 Unknown Physician                          259                           1122                                15,597     $60.

Source:         One percent sample of the            1988     BMA files
    Includes laboratory services biled by non-physician specialties such as independent clinical laboratories which were distrbuted

    among the physician specialties. This was done because only physicians are reimbursed using LRI€
    This column represents whether a physician specialty, on average, would be paid more or less under LRI than under the fee-fo€
    service system.

                           ...




Strengths of this approach.

There appear to be little disagrement among researchers and expens in health economics
that " Effective cost control can be achieved only by controlling prices and the number of
services simultaeously.... ,,
                              52 Studies have explored the possibility of Medicar controllng
the cost of some services " by redefmin the payment unit from a narow procedure to a
more comprehensive bundle of services. " 3

Rollng laboratory reimbursement into Medicar s reognize charge for an office visit would
redefine the offce visit payment unit from a narow procedur to a more comprehensive
package of services. The resulting increase in offce visit charges wil incrase patient cost
sharng through the effect of deductibles and coinsurance, and may affect their decision to
                   55 Funhermore, carers have
seek health car.                                  told us that it is easier to evaluate the
medical necessity of office visits compard to the time and effort needed to make such
decision on individual laboratory tests.

This approach to paying for clinical laboratory services is not without precedent. HMOs and
the Diagnostic Related Groups to reimburse hospitals for inpatient car ar the most visible
examples. Other less visible packages include global surgical fees and demonstration pr ects
involving high volume procedures such as cataract and coronar arery bypass surgeries.

LRIs would provide physicians with appropriate incentives to control use

When the laboratory and medical professional associations were asked why laboratory use has
increased they mentioned the need to reduce uncertnty, searching for asymptomatic disease,
need to be complete and many of the other factors documented by researchers. Everyone
mentioned the rise in malpractice litigation as a primar cause of increased c1inicallaboratory
use.

Everyone we spoke to agrees that the use of laboratory procedures is liely to decline
Medicare s reimbursement for them is combined into a more comprehensive physician offce
visit package. Many people expressed concern that physicians would severely curail their use
of clinical laboratory services resulting is poor quality of patient care. While we agree that
laboratory use wil decline, we find the argument that the decline would jeopardize the qualty
of patient care to be unlikely. The adoption of LRIs wil not change al the forces that have
caused the increased use of laboratory services. In fact some, like the threat of malpractice,
wil work in conjunction with LRIs to prevent the possibilty of under-tratment. It appears
unlikely that most physicians would risk malpractice litigation for the smal sums of money
needed to secure laboratory work.

The possibilty that test use would decline to such low levels as to impai the quality of patient
care is furter mitigated by the development of practice guidelines or protocols. These
guidelines would set minimum requirements for tests needed to determine a given diagnosis,
thus providing definitions and boundares for evaluating possible under-treatment. Even
  without national uniform guidelines, Professional Review Organizations (PROs) could use
  local standards of practice to initiate action to sanction physicians who provide inadequate
  care to patients.

  LRIs wil lower administrative costs

  Bundling all laboratory reimbursement into the recognized charge for physician offce visits
  would elimiate over 25 percent of the line items curntly processed by Medicare carers.
  The elimination of laboratory bils would save the Medicare progr at least $100 millon in
  admnistrative costs annually. Existing billng codes, systems and payment procedures need
  not be revised. Only Medicare s recognized charge for an offce visit changes under LRIs.

  Medicare could concentrate its effons to enforce laws and regulations designed to ensure
  quality testing, rather than police the legality of physicianaboratory joint ventus and other
  financial argements. Carer time would be fred to pursue activities which result in
  progr savings. Medical necessity reviews would focus on the need for office visits and
  target physicians who increase their offce visits, rather than individual laboratory tests or
  procedures. .

  Issues for   Further Exploration

. During  the course of this study several issues were raised concerning the impact of LRIs.
  Many of the issues raised were beyond the scope of this study but need to be considered
  before implementation of a LRI.

  The following areas need to be explored:

        How could hospital outpatient services be included in calculating the base LRI?
        Exclusion of hospital outpatient laboratories from a LRI would in all likelihood shift
        services to hospital laboratories and undermine progrm savings.

        Should the base LRI be adjusted to account for geogrphic varations (e. g. rural vs.
        urban)?

        Should the base LRI be adjusted for certain physician specialties, or should cenain
        specialists be excluded from a LRI payment method?

        Should cenain tests be excluded from a LRI payment method?

        Would the quality of patient care suffer if physicians cunail testing?

        Wil quality of testing suffer as physicians become more cost conscious?
     Wil the forces (malpractice, need to reduce uncenainty, etc. ) that have influenced€
     physician ordering decisions in the past be adequate to prevent under use of laboratory€
     services in a LRI system?€

     Can practice guidelines be used to prevent under use?€

     Wil patient access to car   be   impai?€
Some of these issues wil be examed in greater detail in an additional OIG report, to be€
released shonly.€

CONCLUSION€

The LRI has the potential to alter the forces inherent in the curnt FFS system which€
encourage and reward excessive use of laboratory services. At the same time, it recognizes€
the physician s authority in determning which tests ar medically necessar, does not unjustly€
penalize patients for decisions out of their control and leaves the maketplace and its dynamcs€
unrestrned.€

The major features of this mechanism would:€

      be relatively easy to implement;€

      provide appropriate incentives which allow for predictable, controlled growth of€
      Medicare laboratory expenditures;€

      red:uce the number of claims line items processed by carers   by 25   percent;€

      reduce the paperwork burden for bilers and carers;€

      use deductibles and coinsurance where they can be most effective in affecting overall€
      utilization of health care.€

Implementation of the LRI would result in significant savings from increased coinsurance and€
lower admistrative costs. We wil shortly issue a report which furer explores the financial€
cost implications of these features of the LRI reimbursement mechanism.€
                                                 , "€




                                                   ENDNOTES€

      Social Security Bulletin. Annual Statistical Supplement,                          1988, p. 282.

      Wiliam L. Roper, M. D., " Perspectives on Physician-Payment Reform, New
      England Journal of Medicine,                      September 29, 1988, P. 866.

      Roper, p. 866.

      Roper, p. 866.

        S. Dept. of Health and Human Services, Health Care Financing Admnistrtion,
      Economic Factors in the Use of Laboratory Tests by Offce-Based Physicians,
      Patrcia Munch Danzon , R- 2525- HCFA, (Santa Monica, CA: Rand, August
      1982), p. 60.

      Patrcia Munch Danzon , Willard G. Manning, and M. S. Marquis, "Factors
      Affecting Laboratory Test Use and Prces, Health Care Financi g Review
      Summer 1984 , p. 23.

      Spencer Vibbert, " Is Utilization Review Paying qffl"                        Business      Health,
      Februar 1989, p. 24.
      Danzon Economic Factors in the Use of Laboratory Tests by Offce-Based
      Physicians, p. 61.

      Office of Technology Assessment,                           Paymentfor Physician Services: Strategies
      for Medicare,           (1986), pp. 48- 49,            56.


10.   Thomas Rice, "Physician- induced Demand for Medical Car: New Evidence
      from the Medicar Progrm Advances in Health Economics and Health Services
      Research,         1984 , pp. 129- 160.

11.   Stan N. Finkelstein ,              M.         Technological Change and Clinical Laboratory
      Utilzation            Medical Care,           October 1980, p. 1055.

12.      L. Overholt, "The Use of the Laboratory: Dollars and Sense, Wisconsin
      Medical Journal,  1989, pp. 38- 41.

13.   Judith Thompson Bar, " Design and Analysis of Interventions to Modfy
      Utilization of Therapeutic Drug Monitoring, " Diss. Harard 1987, pp. 31- 39.

14.    Finkelstein , pp. 1055- 1056.
15.   Lawrnce S. Linn et al., "Differences in the Numbers and Costs of Tests Ordered
      by Internists, Famly Physicians, and Psychiatrsts,                     Inquiry,   Fal 1984 , p. 266.


16.   Linn et al., p. 266.

17.       S. Dept. of Health and Huma Services, Offce of Inspector General, Office of
      Analysis and Inspections,                   Financial Arrangements Between Physicians and
      Health Care Businesses: Report to Congress,                   OAI- 12- 88- 01410, (Washington
          C.: May         1989),     p.   18.



18.    M. Eisenberg et al., " Computer- Based Audit to Detect and Corrct
      Overutilization of Laboratory Tests, Medical Care,  1977; 15:915- 921;
      summarzed in Judtih T. Bar, " Improved Laboratory Utilization and Informtion
      Production: The Admnistrator s New Role, Journal of Medical Technology,
      October 1986 , p. 512.


19.       A. Schroeder et al., "The Failure of Physician Education as a Cost Containment
      Strtegy,                                             1984;252: 225- 230;
                       Journal of the American Medical Association,

      summarzed in Bar, " Improved Laboratory Utilzation and Information
      Production " p. 512.

20.   P. Griner and B. Liptzn, "Use of the Laboratory in a Teaching Hospita, Annals
      of Internal Medicine, 1971; 75:157- 163, summazed in Bar, " Improved
      Laboratory Utiization and Information Production " p. 513.


21.     P. Marin et aI., " Inputs into Coronar Care During 30 Years, Annals of
      Internal Medicine,    1974; 81:289- 293, summarzed in Bar, " Improved Laboratory
      1)tilzation and Information Production, " p. 513.

22.   Margaret DiNatae and Judith Bar, " Varations in Clinical Laboratory Utilization:
      Lessons for Relative Ran Feedback Strtegies, " unpublished drt, August 27,
      1989.

23.   Judith Bar, " Clinical Laboratory Utilization: The Role of the Clinical Laboratory
      Scientist, " in Clinical Laboratory Practice,                   ed. Brenta G. Davis, Michael L.
      Bishop, and Diana Mass, pp. xxxi-xlv.

24.   Laboratory Payment Issues, Testimony of the American Clinical Laboratory
      Association Before the Subcommittee on Health and the Environment. June 8,
      1989, p. 35.

25.            S. Dept. of Health and Human Services, Offce of Inspector General, Offce of
      Audit,       Changes are Needed in the Way Medicare Pays for Clinical Laboratory
      Tests,       CIN:A- 09- 89- 00031 (Revised) (Washington , D. ) pp. 5-
                    , "€




26.   Laboratory Payment Issues,                     p. 41.

27.   Financial Arrangements Between Physicians and Health Care Businesses:
      Report to Congress,               pp. 11, 17.


28.   James R. Woo, " Cooperative                        Parership,           American Clinical Products Review,
      Apri 1988, p. 22.


29.   David Hemenway, "Physicians Responses to Financial Incentives, New England
      Journal of Medicine , Vol. 322:15, April 12, 1990, pp. 1059- 1063.

30.   J. Stephen Kroger, M. D., "Legislation , Regulations Provide Opportnities,
      Pitfalls, The Internist, September 1985, p. 17.

31.   Financial Arrangements Between Physicians and Health Care Businesses,                                    p. 18.€


32.   Vibbert, p. 24.

33.   Finkelstein , p. 1055- 1056.

34.   Vibbert, p. 24.

35.   Danzon,         Economic Factors in the Use of Laboratory Tests by Offce-Based
      Physicians,           p. 60.


36.   Danzon , Manning, Marquis, "Factors Affecting Laboratory Test Use and Prces,"
            23.

37.   Payment for Physician Services: Strategies for Medicare,                             pp. 48- 49,   56.


38.   Kroger, p. 17.€


39.   R.A. Hughes et al. "The Ancilar Services Review Prgram in Massachusetts,"
      Journal of the American Medical Association,                              1984;252: 1727- 1732 ,   summarzed
      in Bar Improved Laboratory Utilization and Information Production " p. 512.

40.   Finkelstein, p. 1055- 1056.

41.   Danzon , Manning, Marquis, " Factors Affecting Test Use and Prces," p. 23.

42.   42 CFR 421 , Subpar C.

43.   Laboratory Payment Issues, €                   p. 35.€
44.€   Changes are Needed in the Way Medicare Paysfor Clinical Laboratory Tests,


45.€   Janet B. Mitchell et al., "Packaging Physician Services: Alternative Approaches€
       to Medicare Pan B Reimbursement,"     Inquiry, Winter 1987, pp. 324- 325.€

46.€   Rhonda L. Rundle, "How Doctors Boost Bils by Misrepresenting the Work They
       Do, Wall Street Journal, December 6, 1989, p. 1.

47.€   42 CFR 421.200 (a)(2).

48.€   Linn et al., p. 266.€

49.€   Medicare Contractors, Testimony of Richard P. Kusserow, Inspector Genera,
       Dept. of Health and Human Services Before the Senate Appropriations
       Commttee, Subcommttee on Labor, Health and Human Servces, and Education
       Februar 28, 1989, p. 8.

50.€    About Lab-net, Inc. Physicians ' Laboratory Newsletter                       , No.   4 (Sprig 1987),
       pp. 2-


51.€   Financial Arrangements Between Physicians and Health Care Businesses,                         p. 18.€


52.€   Mitchell et al., p. 325.€

53.€   Dept. of Health and Human Services, Health Care Financing Admnistration.
       Growth in the Volume and Intensity of Physician Services: Issues and Options,
       (1989), p. ES-

54.€   Payment for Physician Services,                       pp. 48- 49,       56.


55.€   Danzon , Manning, Marquis, " Factors Affecting Test Use and Prces, " pp. 25- 27.

56.€   Growth in the Volume and Intensity of Physician Services: Issues and Options,
       pp. 4- 4    to 4-
                                                                         APPENDIX A€
                                       Legislative History and its Effects on Laboratories


Legislation/Regulation                 Provisions of Legislation/Regulation                                   Effects of Legislation/Regulation

                         Required physicians to disdose the actual cost of the lab services    The legislation attempted to eliminate reimbursement for mark-ups
    OBRA - 1980          they purchased form ICLs.                                             on lab services.

                                                                                               Some physicaians responded by opening their own laboratories or
                                                                                               expanding their current physician office lab services.

                         Bundled inpatient lab services into the DRG payments.                 Inpatient lab service became unprofitable.
     PPS - 1983
                                                                                               Hospitals had incentie to eliminate or contan costs of lab services
                                                                                               performed on an inpatient basis.

                                                                                               Pre-admission and post- hospital lab testing were encouraged to
                                                                                               move from the hospital setting to POLs.

                                                                                               Hospitals cut back on the amount of lab equipment they purchased.

                                                                                               Manufacturers began to market their lab equipment to POls and
                                                                                               home markets.

                                                                                               Physicians were further encouraged to open POls.

                         Established area/regional fee schedules for ICLs and hospital labs.
    DEFRA. 1984

                         Mandated that ICLs and hospitals accept assignment for laboratory
                         claims.

                         Eliminated beneficiary deductible;; and copayments.

                         Required establishment of national fee schedule for lab services.
                                                                                               The number of POLs and volume of testing in POLS increased
                         Limited reimbursement for drawing and handling fees.                  dramatically.

                         Discontinued reimbursement for interpretation fees.

                         Instituted direct billng provision.

                         Placed a freeze on the customary and prevailing fees for all
                         physicain services
                                                                                                                   Effects 01 Legislation/Regulation€
Leg Islatlon/Regulatlon€                 Provisions 01 Legislation/Regulation€

                           Brought POls under the regional lee schedule,

    COBRA- 1985€           Required POLs to accept assignment.
                                                                                                     Brought POLs under the same regulations as hospitals and ICLs,
    COBRA- 1986€
     OBRA - 1986           Placed a ceiling on regional lee schedule,€

                           Delayed implementation 01 the national lee schedule.

                           Lilted MD lee freeze.
                                                                                                     Laboratory use increases 25 percent.
                           Placed a Ireeze on area rates,€
     OBRA - 1987                                                                              90.€   Studies suggest that physicians made up lor revenues lost during
                           Stipulated that a national lee schedule be used beginning 1-              MD lee Ireeze by increasing use 01 ancilary services , particularly
                           (not implemented)
                                                                                                     laboratory services.€

                           Reduced the national limitations amount.

                           Reduced area ratedson the most common tests.

                           Eliminated CPI increases.
                                                                                                     Too early to determine.
                            License required for all sites where laboratory work is performed.
      CLiA - 1988
                            Degree 01 regulation tied to complexity 01 testing. €

                                                                                                     Too early to determine.
                            Bans physicians from relerring patients to most labs that they own
                            or in which € they€ have financial interest as 011-
                                                                                92.€
      OBRA - 1989
                            Physician services to be paid using a resource- based relative value
                            scale.€

                            Volume Performance Standards established,

                            HHS to fund outcomes research on quality and appropriateness of
                            medical care.

                            Balance billng limits would apply beginning in 1991.€
                                                                                    the national
                            Cap on clinical laboratory fees set at 93 percent 01
                            median fee.€
     Gloria Randle Scott€


  Gloria Randle Scott. was the first black woman National Presidenl
of the Girl Scouts (1975- 1978). and is the eleventh president (second
female) of Bennett College in Greensboro. North        Carolina (1987 to
present).
   Dr. Scott has been a leader in higher education and an advocate
of women s issues for a long time. Her career began in early 1960 as
a research associate in genetics and embryology at Indiana Univer-
sity Institute for Psychiatric Research. In 1961 . she became the first
black biology teacher at a predominantly white college in In-
dianapolis. It was during her tenure there that she made a decision
to work at black colleges. She felt that she and her husband could
offer their knowledge and experience to black children by team-
teaching. Having been a poor girl herself. she felt there were many
other poor children who needed help in making it through. Dr. Scott
has been providing support and direction for years. holding faculty
and administrative positions at black colleges, including Clark Col-
lege in Atlanta . Grambling State University, North Carolina State A&T
University, and others.
  Gloria Scott was born on April 14, 1938, in Houston, lexas. She
knows what hard times and segregation are all about. When she was
in the second or third grade. she had a paper route, As a little girl. she
was not allowed to go to the public libraries in Houston because they
were not opened to blacks. Public libraries there did not become
desegregated until she was a senior in high school. Nevertheless, it
was the money from a trust established, by a rich white man without
a family, for black high sct1oo1 students that afforded her the oppor-
tunity to go to college. The money that this rich man had was the result
of hard labor by black pcol )1(- who worked for him. It was the per-
suasion of his black bookk('cpt'r that he established the scholarship
fund.
  Dr. Scott received the BdChrior of Ans and Master of Ans degrees
in zoology in 1959 and l )()(). respectively, and the Ph. D. degree in
higher education in 1965 from Indiana University. Her honorary
degrees include: Doctor of I.. 1\\' from Indiana University in 1977; Doc-
tor of Humane Letters from h trlcigh Dickinson University in 1978; and
Doctor of Humane Letters In 111\ Westfield State College in 1989. She
has extensive leadership (' -,p('ri('nce and has served on numerous
bords of diredors, including 1111 (,reensboro Chamber of Commerce,
and Delta Sigma Theta Sorority, Inc.
  Gloria Scott believes that one must have a base from which to stan
and those who have made it must provide the base, direction and
suppon for those who folio\\.
